No.

IN THE

Supreme Court of the United States

OCTOBER TERM, 2019

JOHNATHAN KEEN,
Petitioner,

ve
UNITED STATES OF AMERICA
Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

The Petitioner, Johnathan Keen, has enclosed Petition for Writ of Certiorari to the United States Court of Appeals
for the Eleventh Circuit without prepayment of costs and to proceed in forma pauperis in accordance with Supreme
Court Rule 39, and 18 U.S.C. ยง 3006A(d)(6).The filing of this petition is a continuation of the representation of the
Defendant under a Criminal Justice Act appointment of the undersigned by the Eleventh Circuit. In accordance with
18 U.S.C. ยง 3006A(d)(6), no affidavit as required by Supreme Court Rule 39, need be filed.

WHEREFORE, Petitioner, Johnathan Keen, asks for leave to proceed in forma pauperis.

Dated this 7" day of August, 2020

  

Noel G. Lawrence, Esquire
Florida Bar No.: 844251
101 Union Street East, Suite 200
Jacksonville, Florida 32202
Telephone: 904-356-9928
Facsimile: 904-356-6762

Email: nglawren@Ipnlaw.com

Attorney for Petitioner

23

 

 
